No. 19-685
IN THE

Supreme Court of the United States
__________________________

EDWARD GEORGE MCGREGOR,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
_________________________
On Petition for Writ of Certiorari to the
Texas Court of Criminal Appeals
___________________________
RESPONDENT’S APPENDICES
___________________________
KEN PAXTON
Attorney General
of Texas

EDWARD L. MARSHALL
Chief, Criminal Appeals
Division

JEFFREY C. MATEER
First Assistant
Attorney General

JOSEPH P. CORCORAN*
Assistant Attorney General
Supervising Attorney
for Non-Capital Appeals
* Counsel of Record

MARK PENLEY
Deputy Attorney General
for Criminal Justice

P.O. Box 12548
Austin, Texas 78711-2548
(512) 936-1400
Joseph.corcoran@oag.texas.gov

Attorneys for Respondent

Respondent’s Appendix A

Resp’t App. A, Page 1
Case No. 09-DCR-053051 HC1
(The clerk of the convicting court will fill in this
blank.)
IN THE COURT OF
CRIMINAL APPEALS OF TEXAS
APPLICATION FOR A WRIT OF HABEAS
CORPUS SEEKING RELIEF FROM FINAL
FELONY CONVICTION UNDER CODE OF
CRIMINAL PROCEDURE ARTICLE 11.07
NAME:

Edward George McGregor

DATE OF BIRTH:

3/29/73

PLACE OF CONFINEMENT: McConnell Unit
TDCJ-CID NUMBER:
SID NUMBER:
(1)

1695586

5357635

This application concerns (check all that
apply):
√

√

a conviction

parole

a sentence

mandatory supervision

time credit

out-of-time appeal
or petition for
discretionary review

Resp’t App. A, Page 2
(2)

Which district court entered the judgment
of the conviction you want relief from?
434th District Court of Fort Bend County

(3)

What was the case number in the trial
court?
09-DCR-053051

(4)

What was the name of the trial judge?
James Shoemake

(5)

Were you represented by counsel? If yes,
provide the attorney’s name:
Don Bankston

(6)

What was the date that the judgment was
entered?
9/3/10

(7)

For what offense were you convicted and
what was the sentence?
Capital Murder - Life

(8)

If you were sentenced on more than one
count of an indictment in the same court at
the same time, what counts were you

Resp’t App. A, Page 3
convicted of and what was the sentence in
each count?
________________________________________
________________________________________
(9)

What was the plea you entered? (Check one.)
guilty-open plea
√ not guilty

guilty-plea bargain
nolo contendere/no
contest

If you entered different pleas to counts in
a multi-count indictment, please explain:
___________________________________________
___________________________________________
(10)

What kind of trial did you have?
no jury

jury for guilt and punishment
√ jury for guilt, judge for
Punishment

(11)

Did you testify at trial? If yes, at what
phase of the trial did you testify?
Guilt-Innocence

Resp’t App. A, Page 4

(12)

Did you appeal from the judgment of
conviction?
√ yes

no

If you did appeal, answer the following
questions:
(A) What court of appeals did you appeal
to?
First
(B) What was the case number?
01-10-01085-CR
(C) Were you represented by counsel on
appeal? If yes, provide the attorney’s
name:
Don Bankston
(D) What was the decision and the date of
the decision?
Affirmed 8/9/12
(13)

Did you file a petition for discretionary
review in the Court of Criminal Appeals?
√ yes

no

If you did file a petition for discretionary
review, answer the following questions:

Resp’t App. A, Page 5
(A) What was the case number?
PD-0150-13
(B) What was the decision and the date of
the decision?
Refused 4/17/13
(14)

Have you previously filed an application
for a writ of habeas corpus under Article
11.07 of the Texas Code of Criminal
Procedure challenging this conviction?
yes

√ no

If you answered yes, answer the following
questions:
(A) What was the Court
Appeals’ writ number?

of

Criminal

(B) What was the decision and the date of
the decision?

(C) Please the reason that the current
claims were not presented and could
not have been presented in your
previous application.

Resp’t App. A, Page 6

(15)

Do you currently have any petition or
appeal pending in any other state or
federal court?
 yes

√ no

If you answered yes, please provide the
name of the court and the case number:
___________________________________________
(16)

If you are presenting a claim for time
credit,
have
you
exhausted
your
administrative remedies by presenting
your claim to the time credit resolution
system of the Texas Department of
Criminal Justice? (This requirement
applies to any final felony conviction,
including state jail felonies.)
yes

√ no

If you answered yes, answer the following
questions:
What date did you present the claim to the
time credit resolution system?

Resp’t App. A, Page 7

(B) Did you receive a decision and, if yes,
what was the date of the decision?

If you answered no, please explain why you
have not submitted your claim:
Not required under Ex parte Molina, No.
WR-83,799-01 (Tex. Crim. App Feb. 10,
2016). Also, the issue is framed as
ineffective of assistance of trial counsel.
(17) Beginning on page 6, state concisely every
legal ground for your claim that you are
being unlawfully restrained, and then
briefly summarize the facts supporting
each ground. You must present each
ground on the form application and a brief
summary of the facts. If your grounds and
brief summary of the facts have not been
presented on the form application, the
Court will not consider your grounds. If you
have more than four grounds, use pages 14
and 15 of the form, which you may copy as
many times as needed to give you a
separate page for each ground, with each
ground numbered in sequence. The
recitation of the facts supporting each
ground must be no longer than the two
pages provided for the ground in the form.

Resp’t App. A, Page 8

You may include with the form a
memorandum of law if you want to present
legal authorities, but the Court will not
consider grounds for relief set out in a
memorandum of law that were not raised
on the form. The citations and argument
must be in a memorandum that complies
with Texas Rules of Appellate Procedure
73 and does not exceed 15,000 words if
computer-generated or 50 pages if not. If
you are challenging the validity of your
conviction, please include a summary of
the facts pertaining to your offense and
trial in your memorandum.

Resp’t App. A, Page 9
GROUND ONE:
THE STATE SUPPRESSED EVIDENCE AND
USED FALSE TESTIMONY REGARDING THE
BENEFITS PROVIDED TO ITS WITNESSES.
FACTS SUPPORTING GROUND ONE:
Delores Lee Gable was serving sentences of
90 years for solicitation of capital murder, 75
years for delivery of cocaine, 40 years for credit
card abuse, and 25 years for escape when she
wrote a letter to a prosecutor in 2006 generously
offering to testify against applicant. The State
readily accepted her offer without trying to
confirm whether her information was true. She
testified that she overheard applicant confess
the murder to her husband while the police were
outside the deceased’s home in 1990. She denied
any promises in exchange for her testimony. She
specifically denied that she asked prosecutor

Resp’t App. A, Page 10
Beth Shipley to help her with parole, such as by
writing a letter or making a recommendation.
This testimony was false, as Shipley told Gable
before trial that she would write a letter to the
parole board if Gable helped her in applicant’s
case. Gable wrote a letter to Shipley during the
trial setting forth what her parole lawyer
wanted in that letter. Shipley wrote the letter to
the parole board five days after the verdict.
Gable wrote a letter in 2015 complaining that
Shipley did not keep her promise, as she was still
in prison. Shipley responded by letter that she
promised to “tell people” that Gable helped and
she did “exactly that.”
Marvin Paxton and Adam Osani testified
that, while they were confined with applicant in

Resp’t App. A, Page 11
the Harris County jail, he threatened to kill
Paxton “like he did those other two bitches.”
Thereafter, he told Paxton, that he “fucked
them,” “lost his cool,” and killed them. Paxton
testified that he pled guilty to two aggravated
robbery

charges

without

an

agreed

recommendation on punishment and a cap of 45
years. Shipley told him that, if he provided good
information and helped with applicant’s case, it
was “possible” that this would be brought to the
attention of his prosecutor and the judge. Osani
testified that he was charged with felony assault
family violence, pled guilty to a misdemeanor,
was sentenced to six months in jail, and went
home. He denied that he received this favorable
plea bargain in exchange for his testimony. In
fact, Shipley arranged for Paxton to receive

Resp’t App. A, Page 12
seven year sentences in exchange for his
testimony. She told Osani’s lawyer that she
would notify the trial court prosecutor of his
cooperation after he testified in the grand jury.
She honored her agreement, and the State
reduced the felony to a misdemeanor and
allowed him to plead guilty for time served eight
days after he testified in the grand jury.
The

State

failed

to

disclose

this

information to defense counsel. Shipley elicited
and

failed

to correct

the

witnesses’

false

testimony denying or minimizing these benefits.

Resp’t App. A, Page 13
GROUND TWO:
THE STATE USED FALSE TESTIMONY THAT
APPLICANT CONFESSED TO DELORES LEE
GABLE
FACTS SUPPORTING GROUND TWO:
Gable

testified

that

she

overheard

applicant confess the murder to her husband
while the police were outside the deceased’s
home in Missouri City. She saw a fresh cut over
applicant’s lip in the same location as his scar.
She saw his father outside while he was talking
to her husband. She provided seemingly trivial
information about applicant and his family. She
asserted that she came forward out of concern
for the deceased’s elderly parents, who lived out
of

state.

The

prosecutors

argued

during

summation that, if she were lying, she would not

Resp’t App. A, Page 14
know these details about applicant, his family,
and the deceased’s parents. The defense did not
answer these arguments.
Every aspect of Gable’s testimony was
fabricated. She knew about applicant, his family,
and the deceased’s parents because she was
confined in prison with his former fiancée,
Alisha

Parker.

Her

mother

and

daughter

provided affidavits that she lived with them in
Houston at the time in question and never lived
in Missouri City. Hospital records reflect that
applicant received the scar over his lip more
than two years after the murder. TDCJ records
reflect that Mr. McGregor was in prison on the
night of the murder. If Gable did not live in
applicant’s neighborhood that night, she lied

Resp’t App. A, Page 15
about hearing him confess to her husband in the
driveway of their home.

Resp’t App. A, Page 16
GROUND THREE:
APPLICANT WAS DENIED THE EFFECTIVE
ASSISTANCE OF COUNSEL AT THE GUILTINNOCENCE STAGE
FACTS SUPPORTING GROUND THREE:
Counsel knew about but failed to elicit
testimony regarding Gable’s relationship with
Parker to explain how she acquired information
about applicant, his family, and the deceased’s
parents. He failed to interview Gable’s mother
and daughter and call them to testify that she
lived with them in southeast Houston at the time
of the murder and never lived in Missouri City.
He failed to offer the hospital records to
demonstrate that applicant received the scar
over his lip more than two years after the
murder. And, he failed to ask the State to

Resp’t App. A, Page 17
stipulate that Mr. McGregor was not at his
family’s home on the night of the murder or
introduce uncontrovertible evidence of same.
Counsel

also

failed

to

request

an

instruction in the charge pursuant to article
38.075 of the Code of Criminal Procedure that
the jury could not convict applicant on the
uncorroborated testimony of Paxton and Osani,
his fellow jail inmates.

Resp’t App. A, Page 18
GROUND FOUR:
THE CUMULATIVE PREJUDICE OF THE
PROSECUTORIAL MISCONDUCT AND THE
DEFICIENT PERFORMANCE OF COUNSEL
REQUIRES RELIEF.
FACTS SUPPORTING GROUND FOUR:
The jury convicted applicant of capital
murder without knowing that Shipley agreed to
write a letter informing the parole board of
Gable’s

cooperation

in

exchange

for

her

testimony; arranged with Paxton’s lawyer and
the trial court prosecutor for Paxton to receive
seven-year sentences after he testified; and
informed the trial court prosecutor of Osani’s
cooperation, which resulted in a plea bargain for
time served on a misdemeanor.
The jury did not know that Gable was

Resp’t App. A, Page 19
confined in prison with applicant’s former
fiancée, who was the source of her information
about applicant, his family, and the deceased’s
parents; that Gable lived with her mother and
daughter in southeast Houston at the time of the
murder and never lived in Missouri City; that
Gable lied about seeing a cut over applicant’s lip
on the night of the murder, as he received the
injury that left the scar more than two years
later;

and

that

Gable

lied

about

seeing

applicant’s father outside on the night of the
murder, as he was in prison. Finally, the jury did
not know that it could not convict applicant on
the uncorroborated testimony of Paxton and
Osani.
The cumulative effect of the prejudice

Resp’t App. A, Page 20
resulting from the prosecutorial misconduct and
the

deficient

performance

of

counsel

is

overwhelming. The remaining evidence was
weak and circumstantial.

Resp’t App. A, Page 21
GROUND FIVE:
COUNSEL WAS INEFFECTIVE IN FAILING TO
ENSURE THAT APPLICANT RECEIVED ALL OF
HIS PRETRIAL JAIL TIME CREDIT.
FACTS SUPPORTING GROUND:
Applicant posted bond on the primary case
on May 11, 2006. He was charged in a Harris
County capital murder case on December I, 2006.
He has been confined since that date. The
primary case was re indicted on October 26, 2009.
He was convicted on September 3, 2010. The
court gave him 306 days of pretrial jail time
credit in the judgment. He did not receive jail
time credit from December 1, 2006, to October 26,
2009.
The only apparent basis for denying
applicant almost three years of jail time credit is

Resp’t App. A, Page 22
that, theoretically, he was on bond on the initial
indictment in the primary case while he was
confined on the Harris County case. Assuming
arguendo that was the basis for the court's
decision,

counsel

performed

deficiently

in

failing to have the bondsman surrender the bond
in the primary case once applicant was confined
in the Harris County case. Applicant would have
been entitled to jail time credit from the date the
bondsman surrendered the bond had counsel
performed this simple task. Accordingly, the
court should correct the judgment nunc pro tune
to give applicant additional jail time credit from
December 1, 2006, through October 26, 2009.

Resp’t App. A, Page 23
WHEREFORE, APPLICANT PRAYS THAT THE
COURT GRANT APPLICANT
RELIEF TO WHICH HE MAY BE ENTITLED IN
THIS PROCEEDING.
VERIFICATION
This application must be verified or it will be
dismissed for non-compliance. For verification
purposes, an applicant is a person filing the application
on his or her own behalf. A petitioner is a person filing
the application on behalf of an applicant, for example,
an applicant’s attorney. An inmate is a person who is
in custody.
The inmate applicant must sign either the “Oath
Before a Notary Public” before a notary public or the
“Inmate’s Declaration” without a notary public. If the
inmate is represented by a licensed attorney, the
attorney may sign the “Oath Before a Notary Public”
as petitioner and then complete “Petitioner’s
Information.” A non-inmate applicant must sign the
“Oath Before a Notary Public” before a notary public
unless he is represented by a licensed attorney, in
which case the attorney may sign the verification as
petitioner.
A non-inmate non-attorney petitioner must sign
the “Oath Before a Notary Public” before a notary
public and must also complete “Petitioner’s
Information.” An inmate petitioner must sign either
the “Oath Before a Notary Public” before a notary
public or the “Inmate’s Declaration” without a notary

Resp’t App. A, Page 24
public and must also complete the appropriate
“Petitioner’s Information.”
OATH BEFORE A NOTARY PUBLIC
STATE OF TEXAS
COUNTY OF _______________
_________________, being duly sworn, under
oath says: “I am the applicant / petitioner (circle one)
in this action and know the contents of the above
application for a writ of habeas corpus and, according
to my belief, the facts stated in the application form are
true.”
[Blank]
Signature of Applicant / Petitioner (circle one)

SUBSCRIBED AND SWORN TO BEFORE ME THIS
_____ DAY OF __________, 20_____.
[Blank]
Signature of Notary Public

Resp’t App. A, Page 25
PETITIONER’S INFORMATION
Petitioner’s printed name: Randy Schaffer
State bar number, if applicable: 17724500
Address:

1021 Main
Suite 1440
Houston 77002

Telephone:

713-951-9555

Fax:

713-951-9854
noguilt@swbell.net

INMATE’S DECLARATION
I, Edward McGregor, am the applicant /
petitioner (circle one) and being presently
incarcerated in McConnell Unit, declare under
penalty of perjury that, and according to my
belief, the facts stated above in the above
application are true and correct.
Signed on January 26, 2016
[Signature – Edward McGregor]
Signature of Applicant / Petitioner (circle one)

Resp’t App. A, Page 26
PETITIONER’S INFORMATION
Petitioner’s printed name: Randy Schaffer
Address:

1021 Main, Suite 1440
Houston, Texas 77002
noguilt@swbell.net

Telephone:

713-951-9555

Fax:

713-951-9854

Signed on January 26, 2016
[Signature – Randy Schaffer]
Signature Petitioner

Respondent’s Appendix B

Resp’t App. B, Page 1
[What follows includes only McGregor’s legal
arguments regarding “materiality” under Napue]

GROUND ONE
THE STATE’S FAILURE TO DISCLOSE TO THE
DEFENSE THAT ITS THREE KEY WITNESSES
WOULD RECEIVE OR HAD RECEIVED
CONSIDERATION IN EXCHANGE FOR THEIR
TESTIMONY, AND ITS USE OF THEIR FALSE
TESTIMONY TO THE CONTRARY, DENIED
APPLICANT DUE PROCESS OF LAW AND A
FAIR TRIAL.
A.

The Standard of Review

Suppression by the prosecution of evidence
favorable to the accused violates due process where.
the evidence is material either to guilt or to
punishment, irrespective of the good faith or the bad
faith of the prosecution. Brady v. Maryland, 373 U.S.
83, 87 (1963); U.S. Const. amends. V and XIV. The
prosecution has a duty to disclose favorable evidence,
even it was not requested or was requested only in a
general way, if the evidence would be “of sufficient
significance to result in the denial of the defendant’s
right to a fair trial.” United States v. Agurs, 427 U.S.
97, 108 (1976). Impeachment evidence must be
disclosed under Brady. Strickler v. Greene, 527 U.S.
262, 281-82 (1999). All information known to law

Resp’t App. B, Page 2
enforcement agencies is imputed to the prosecution. Ex
parte Adams, 768 S.W. 2d 281, 292 (Tex. Crim. App.
1989).
Regardless of any defense request, favorable
evidence is material, and constitutional error results
from its suppression by the prosecution, “if there is a
reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding
would have been different.” United States v. Bagley,
473 U.S. 667, 682 (1985).
The use of false testimony by the prosecution
violates due process. Giglio v. United States, 405 U.S.
150, 154 (1972) (prosecution used false testimony that
key witness would not receive leniency for testimony);
Adams, 768 S. W.2d at 288-89 (prosecution used false
testimony that witness identified defendant in lineup).
The prosecutor cannot knowingly allow a witness to
create a false impression of the facts. Alcorta v. Texas,
355 U.S. 28, 31-32 (1957) (prosecutor told witness not
to volunteer his sexual relationship with defendant’s
wife); Davis v. State, 831 S.W.2d 426, 439 (Tex. App.—
Austin 1992, pet. ref’d) (prosecutor privately
threatened witness with perjury and, after witness
changed testimony, created false impression that
witness did so on her own initiative). The defendant
must show that the testimony was false or misleading
and was material. He need not show that the
prosecutor knew that the testimony was false in order
to obtain relief. Ex parte Chabot, 300 S.W.3d 768, 771
(Tex. Crim. App. 2009) (new trial required where
accomplice witness testified falsely, without

Resp’t App. B, Page 3
prosecutor’s knowledge, that he did not sexually
assault or harm victim, that he acted under duress,
and that he was in another room when she was
sexually assaulted and murdered).
A showing of materiality does not require the
defendant to prove that disclosure of the suppressed
evidence or impeachment of the false testimony would
have resulted in an acquittal or a lesser sentence. The
question is not whether he more likely than not would
have received a different verdict, but whether be
received a fair trial, understood as a trial resulting in
a verdict worthy of confidence. Kyles v. Whitley, 514
U.S. 419,434 (1995).
*
C.

*

*

Materiality

The State needed the testimony of Gable,
Paxton, and Osani that applicant “confessed” to them
to avoid an instructed verdict. Otherwise, it could
prove only that applicant’s semen was found in
Wildman and, four years later, in a condom in the
sheets of Barnum’s bed. Evidence that applicant had
sexual intercourse with two women who were
murdered, although undoubtedly suspicious, would not
be legally sufficient to prove beyond a reasonable doubt
that he killed either or both of them. The State knew
this when it bought the false testimony of three career
criminals that applicant “confessed” to them.
The State portrayed Gable as a prison inmate

Resp’t App. B, Page 4
suffering from cancer who came forward (16 years
later) to “do the right thing” and “clear her
conscience.”[FN34] It portrayed Paxton as a jail inmate
who came forward because he “has a mother.” It
portrayed Osani as a jail inmate who did not come
forward at all and reluctantly became involved after
Paxton disclosed his name to the State. It presented
and failed to correct Gable’s false testimony that she
did not request and would not receive assistance with
parole in exchange for her testimony. It presented
Osani’s false testimony that he did not receive any
consideration for his cooperation. It presented no
testimony regarding the extent of the consideration
that Paxton would receive. Bankston elicited that
Paxton pled guilty to two aggravated robbery charges
for a presentence investigation without an agreed
recommendation on punishment and a cap of 45 years
and that, if he provided good information and helped
with applicant’s case, “it was possible” that this would
be brought to the attention of the trial court prosecutor
and the judge. In fact, Shipley agreed to write and did
write a letter informing the parole board of Gable’s
cooperation; arranged with Paxton’s lawyer and the
trial court prosecutor for Paxton to receive seven-year
sentences after he testified; and informed the trial
court prosecutor of Osani’s grand jury testimony,
which resulted in a plea bargain for time served on a
misdemeanor.
The State’s conduct in this case insults the
integrity of the criminal justice system. The
undisclosed agreements and benefits and the false
testimony were material to the credibility of all three

Resp’t App. B, Page 5
key prosecution witnesses. See Chabot, 300 S.W.3d at
772. This evidence reasonably could be considered to
put the case in such a different light as to undermine
confidence in the verdict. See Kyles, 514 U.S. at 435.
Applicant is entitled to a new trial. Shipley should be
criminally prosecuted and disbarred for suborning
perjury and failing to correct false testimony.
*

*

*

GROUND TWO
THE STATE'S USE OF' FALSE TESTIMONY
THAT APPLICANT CONFESSED TO DELORES
LEE GABLE DENIED HIM DUE PROCESS OF
LAW AND A FAIR TRIAL.
*
B.

*

*

Materiality

Gable was the key prosecution witness, as she
knew details about applicant and his family (not to
mention Wildman) that arguably could not be
explained unless she knew them and lived in the
neighborhood on the night of the murder. The State
vigorously argued that she lived there that night. She
did not.
Parker told Gable about applicant, his family,
and the information reported in the press about the
Wildman murder. Gable lived with her mother and
daughter in southeast Houston in April of 1990 and
never lived in Missouri City. Applicant received the

Resp’t App. B, Page 6
scar over his lip more than two years after the murder.
Gable did not see Mr. McGregor on the night of the
murder, as he was in prison. Thus, Gable testified
falsely that she overheard applicant confess to her
husband in the driveway of their home on the night of
the murder, that he had a fresh cut over his lip, and
that she saw Mr. McGregor that night.
Had the jury known that Gable was lying about
applicant’s “confession,” it would have viewed the
testimony of Paxton and Osani with greater skepticism
especially had the court provided the instruction
required by article 38.075 of the Code of Criminal
Procedure that it could not convict applicant on the
uncorroborated testimony of fellow jail inmates
regarding a statement against his interest. See Tex.
Crim. Proc. Code art. 38.075(a) (West 2010). Gable’s
false testimony reasonably could be considered to put
the case in such a different light as to undermine
confidence in the verdict. See Kyles, 514 U.S. at 435.
Accordingly, applicant is entitled to a new trial.
*

*

*

Respondent’s Appendix C

Resp’t App. C, Page 1
Case No. 09-DCR-053051 HC1
(The clerk of the convicting courtwill fill in this
blank.)
IN THE COURT OF
CRIMINAL APPEALS OF TEXAS
Supplement To
APPLICATION FOR A WRIT OF HABEAS
CORPUS SEEKING RELIEF FROM FINAL
FELONY CONVICTION UNDER CODE OF
CRIMINAL PROCEDURE ARTICLE 11.07
NAME:

Edward George McGregor

DATE OF BIRTH:

3/29/73

PLACE OF CONFINEMENT: McConnell Unit
TDCJ-CID NUMBER:
SID NUMBER:
(1)

1695586

5357635

This application concerns (check all that
apply):
√

√

a conviction

parole

a sentence

mandatory supervision

time credit

out-of-time appeal
or petition for
discretionary review

Resp’t App. C, Page 2

(2)

Which district court entered the judgment
of the conviction you want relief from?
434th District Court of Fort Bend County

(3)

What was the case number in the trial
court?
09-DCR-053051

(4)

What was the name of the trial judge?
James Shoemake

(5)

Were you represented by counsel? If yes,
provide the attorney’s name:
Don Bankston

(6)

What was the date that the judgment was
entered?
9/3/10

(7)

For what offense were you convicted and
what was the sentence?
Capital Murder - Life

(8)

If you were sentenced on more than one
count of an indictment in the same court at

Resp’t App. C, Page 3
the same time, what counts were you
convicted of and what was the sentence in
each count?
________________________________________
________________________________________
(9)

What was the plea you entered? (Check one.)
guilty-open plea
√ not guilty

guilty-plea bargain
nolo contendere/no
contest

If you entered different pleas to counts in
a multi-count indictment, please explain:
___________________________________________
___________________________________________
(10)

What kind of trial did you have?
no jury

jury for guilt and punishment
√ jury for guilt, judge for
punishment

Resp’t App. C, Page 4
(11)

Did you testify at trial? If yes, at what
phase of the trial did you testify?
Guilt-Innocence

(12)

Did you appeal from the judgment of
conviction?
√ yes

no

If you did appeal, answer the following
questions:
(A) What court of appeals did you appeal
to?
First
(B) What was the case number?
01-10-01085-CR
(C) Were you represented by counsel on
appeal? If yes, provide the attorney’s
name:
Don Bankston
(D) What was the decision and the date of
the decision?
Affirmed 8/9/12
(13)

Did you file a petition for discretionary
review in the Court of Criminal Appeals?
√ yes

no

Resp’t App. C, Page 5
If you did file a petition for discretionary
review, answer the following questions:
(A) What was the case number?
PD-0150-13
(B) What was the decision and the date of
the decision?
Refused 4/17/13
(14)

Have you previously filed an application
for a writ of habeas corpus under Article
11.07 of the Texas Code of Criminal
Procedure challenging this conviction?
yes

√ no

If you answered yes, answer the following
questions:
(A) What was the Court
Appeals’ writ number?

of

Criminal

(B) What was the decision and the date of
the decision?

Resp’t App. C, Page 6
(C) Please the reason that the current
claims were not presented and could
not have been presented in your
previous application.

(15)

Do you currently have any petition or
appeal pending in any other state or
federal court?
 yes

√ no

If you answered yes, please provide the
name of the court and the case number:
___________________________________________
(16)

If you are presenting a claim for time
credit,
have
you
exhausted
your
administrative remedies by presenting
your claim to the time credit resolution
system of the Texas Department of
Criminal Justice? (This requirement
applies to any final felony conviction,
including state jail felonies.)
yes

√ no

If you answered yes, answer the following
questions:

Resp’t App. C, Page 7

What date did you present the claim to the
time credit resolution system?

(B) Did you receive a decision and, if yes,
what was the date of the decision?

If you answered no, please explain why you
have not submitted your claim:
Not required under Ex parte Molina, No.
WR-83,799-01 (Tex. Crim. App Feb. 10,
2016). Also, the issue is framed as
ineffective of assistance of trial counsel.
(17) Beginning on page 6, state concisely every
legal ground for your claim that you are
being unlawfully restrained, and then
briefly summarize the facts supporting
each ground. You must present each
ground on the form application and a brief
summary of the facts. If your grounds and
brief summary of the facts have not been
presented on the form application, the
Court will not consider your grounds. If you
have more than four grounds, use pages 14
and 15 of the form, which you may copy as
many times as needed to give you a

Resp’t App. C, Page 8
separate page for each ground, with each
ground numbered in sequence. The
recitation of the facts supporting each
ground must be no longer than the two
pages provided for the ground in the form.
You may include with the form a
memorandum of law if you want to present
legal authorities, but the Court will not
consider grounds for relief set out in a
memorandum of law that were not raised
on the form. The citations and argument
must be in a memorandum that complies
with Texas Rules of Appellate Procedure
73 and does not exceed 15,000 words if
computer-generated or 50 pages if not. If
you are challenging the validity of your
conviction, please include a summary of
the facts pertaining to your offense and
trial in your memorandum.

Resp’t App. C, Page 9
GROUND ONE:
THE STATE SUPPRESSED EVIDENCE AND
USED FALSE TESTIMONY REGARDING THE
BENEFITS PROVIDED TO' ITS WITNESSES.
FACTS SUPPORTING GROUND ONE:
The State introduced a letter that Delores
Gable wrote to Mike Elliott asserting that she
had colon cancer and was “seeking some relief
from (sic) testifying” or she would “just leave
well enough alone.” Beth Shipley told the court
that “maybe the relief that Gable is seeking is
clearing her conscience” because she has cancer
rather than “anything about a deal.” The State
presented false evidence that Gable had colon
cancer. TDCJ records reflect that she was not
treated for cancer during the 14 years that she
was incarcerated before she wrote the letter.

Resp’t App. C, Page 10
Donald Bankston interviewed Gable in
prison in July of 2010. Gable told Bankston that
she did not know Alicia Parker and was not
aware of Parker’s relationship with applicant. As
a result, Bankston made a strategic decision not
to elicit testimony that Gable was confined with
Parker, applicant’s former fiancée, for six
months before she wrote the letter to Elliott
offering to testify against applicant. The State
failed to disclose to Bankston a letter that Gable
wrote to FBI agent Glenn Gregory after she met
with Bankston, in which she acknowledged that
she falsely told him that she did not know Parker
and was not aware of Parker’s relationship with
applicant. Had the State disclosed this letter,
Bankston would have elicited testimony that
Gable was confined with Parker and argued

Resp’t App. C, Page 11
during summation that Parker was the source of
Gable’s information about applicant and his
family.

Resp’t App. C, Page 12
WHEREFORE, APPLICANT PRAYS THAT THE
COURT GRANT APPLICANT
RELIEF TO WHICH HE MAY BE ENTITLED IN
THIS PROCEEDING.
VERIFICATION
This application must be verified or it will be
dismissed for non-compliance. For verification
purposes, an applicant is a person filing the application
on his or her own behalf. A petitioner is a person filing
the application on behalf of an applicant, for example,
an applicant’s attorney. An inmate is a person who is
in custody.
The inmate applicant must sign either the “Oath
Before a Notary Public” before a notary public or the
“Inmate’s Declaration” without a notary public. If the
inmate is represented by a licensed attorney, the
attorney may sign the “Oath Before a Notary Public”
as petitioner and then complete “Petitioner’s
Information.” A non-inmate applicant must sign the
“Oath Before a Notary Public” before a notary public
unless he is represented by a licensed attorney, in
which case the attorney may sign the verification as
petitioner.
A non-inmate non-attorney petitioner must sign
the “Oath Before a Notary Public” before a notary
public and must also complete “Petitioner’s
Information.” An inmate petitioner must sign either
the “Oath Before a Notary Public” before a notary
public or the “Inmate’s Declaration” without a notary

Resp’t App. C, Page 13
public and must also complete the appropriate
“Petitioner’s Information.”
OATH BEFORE A NOTARY PUBLIC
STATE OF TEXAS
COUNTY OF HARRIS
Randy Schaffer, being duly sworn, under oath
says: “I am the applicant / petitioner (circle one) in this
action and know the contents of the above application
for a writ of habeas corpus and, according to my belief,
the facts stated in the application form are true.”
[Signature – Randy Schaffer]
Signature of Applicant / Petitioner (circle one)

SUBSCRIBED AND SWORN TO BEFORE ME THIS
11 DAY OF Aug. 2016.
[Signature – Loren Donalson, Norary]
Signature of Notary Public

Resp’t App. C, Page 14
PETITIONER’S INFORMATION
Petitioner’s printed name: Randy Schaffer
State bar number, if applicable: 17724500
Address:

1021 Main
Suite 1440
Houston 77002

Telephone:

713-951-9555

Fax:

713-951-9854
noguilt@swbell.net

INMATE’S DECLARATION
I, ____________, am the applicant /
petitioner (circle one) and being presently
incarcerated in __________, declare under
penalty of perjury that, and according to my
belief, the facts stated above in the above
application are true and correct.
Signed on __________________
[Blank]
Signature of Applicant / Petitioner (circle one)

Resp’t App. C, Page 15
PETITIONER’S INFORMATION
Petitioner’s printed name: Randy Schaffer
Address:

1021 Main, Suite 1440
Houston, Texas 77002
noguilt@swbell.net

Telephone:

713-951-9555

Fax:

713-951-9854

Signed on August 11, 2016
[Signature – Randy Schaffer]
Signature Petitioner

Respondent’s Appendix D

Resp’t App. D, Page 1
No. WR-85,833-01
IN THE COURT OF
CRIMINAL APPEALS
OF TEXAS
EX PARTE
EDWARD GEORGE McGREGOR
On Application For A Writ Of Habeas Corpus
From The 434th District Court
Of Fort Bend County, Texas
Cause Number 09-DCA-053051-A
APPLICANT’S MOTION FOR REHEARING
Randy Schaffer, P.C.
State Bar No. 17724500
1021 Main, Suite 1440
Houston, Texas 77002
(713) 951-9555
(713) 951-9854 (facsimile)
noguilt@swbell.net
Attorney for Applicant
EDWARD GEORGE MCGREGOR

Resp’t App. D, Page 2
PROCEDURAL HISTORY
Applicant was convicted of capital murder and
sentenced to life in prison in 2010. The conviction was
affirmed on appeal. McGregor v. State, 394 S.W.3d 90
(Tex. App.—Houston [1st Dist.] 2012, pet. ref’d).
Applicant filed a habeas corpus application in
2016. The trial court conducted an extensive
evidentiary hearing and recommended that relief be
granted because the State suppressed favorable
impeachment evidence and used false testimony. This
Court unanimously denied relief in an unpublished
opinion issued on June 12, 2019. Applicant moves for
rehearing pursuant to Rule of Appellate Procedure
79.1.
GROUNDS FOR REHEARING
1.

The Court Failed To Accord The
Appropriate Deference To The Trial
Court’s Findings Of Fact.

2.

The Court Erred In Holding That The
False Testimony Was Not Material.
REASONS FOR REHEARING

THE COURT ERRED IN HOLDING THAT THE
FALSE TESTIMONY WAS NOT MATERIAL.

Resp’t App. D, Page 3
A.

The Court’s Opinion Will Encourage
Prosecutors To Continue To Suppress
Favorable Evidence and Use False
Testimony.

The Court found that the record supports the
trial court’s findings that lead prosecutor Elizabeth
Shipley promised Adam Osani that she would report
his cooperation to his prosecutor; that she failed to
disclose this promise to defense counsel Don Bankston;
and that Osani testified falsely that he received no
benefit from the State. Slip Op. at 16. The Court also
held that the record supports the trial court’s findings
that Shipley offered a parole letter to Delores Lee
Gable for her testimony; that she failed to disclose this
promise to Bankston; and that Gable testified falsely
that there was no such promise. Slip Op. at 20. The
Court implicitly found—without saying so—that
Shipley was a party to aggravated perjury or perjury. 1
The Court recites Shipley’s criminal and
unethical conduct dispassionately, as if it were
discussing just another day at the Harris County
Criminal Courthouse. There is no hint that the Court
is outraged, upset, or even a little miffed at her
conduct. It did not even scold her by saying, “bad girl.”

1 Shipley knowingly misled the jury that Marvin Paxton
would not receive a benefit in exchange for his testimony.
Applicant will discuss infra that the Court erred in misconstruing
his argument and in refusing to defer to the trial court’s findings
regarding Paxton.

Resp’t App. D, Page 4
It is disconcerting that the highest criminal court in
the state is so accustomed to prosecutors suppressing
evidence and using false testimony that it does not
consider such conduct to be worthy of reproach.
Furthermore, the Court did not refer Shipley to the
Chief Disciplinary Counsel for the State Bar of Texas
or sanction her, as it has done to defense attorneys who
draw its ire. 2 Prosecutors will continue to suppress
favorable evidence and use false testimony unless
there are adverse consequences. Wrongful convictions
will recur unless this Court grants relief and imposes
disciplinary sanctions.
It is troubling that the Court unanimously
agreed to deny relief, despite the trial court’s
recommendation to grant it, where Shipley repeatedly

2 See Cannon v. State, 252 S.W.3d 342, 352 (Tex. Crim.
App. 2008) (referring defense counsel to State Bar for refusing to
participate in trial after trial court denied motion for
continuance); Ex parte Medina, 361 S.W.3d 633, 643 (Tex. Crim.
App. 2011) (holding habeas counsel in contempt and denying him
compensation for filing “skeleton writ” in death penalty case); In
re Dow, Nos. WR-61,939-01 and WR-61,939-02 (Tex. Crim. App.
Jan. 14, 2015) (not designated for publication) (suspending habeas
counsel from practicing before Court for one year for filing
untimely subsequent application in death penalty case); Ex parte
Stoneman, No. WR-86,966-01 (Tex. Crim. App. May 9, 2018) (not
designated for publication) (referring habeas counsel to Chief
Disciplinary Counsel for State Bar for representing in motion that
State did not file objections or oppose relief in this Court in case
where State did not file objections or any other document opposing
relief after trial court entered findings recommending relief—
which this Court granted based on those findings one week later).

Resp’t App. D, Page 5
engaged in criminal and unethical conduct to obtain a
capital murder conviction. That she knowingly
engaged in this despicable conduct demonstrates her
belief that it was necessary to deceive the jury about
the credibility of the convict witnesses because the
remaining evidence demonstrated that applicant had
sex with the complainant but not that he killed her.
B.

The Court Did Not Accord The Appropriate
Deference To The Trial Court’s Findings Of
Fact.
1.

If The Trial Court’s Findings Of Fact
Are Inadequate, The Remedy Is To
Remand For Additional Findings.

The Court found that the trial court “did not
specify the nature of the promises or make specific
credibility findings” and failed to make any findings
regarding whether Delores Lee Gable lied about
hearing applicant confess the murder to her husband. 3
3 Slip Op. at 15, 20-21. If the findings are inadequate,
the remedy is to remand the case to the trial court to
make specific findings instead of this Court making
those findings in the first instance.
2.

The Court Erroneously Substituted

3 The Court observed that applicant proposed a finding of
fact that Gable lied about hearing him confess the murder to her
husband, but the trial court did not adopt it; instead, it found that
she lied about other matters, which implies that she lied about the
confession. Slip Op. at 20-21.

Resp’t App. D, Page 6
Its Judgment For The Trial Court’s.
The Court disagreed with the trial court’s
recommendation and rejected some of its fact findings
to justify denying relief. The Court readily adopts trial
court findings to deny relief but rejects findings that
would require it to grant relief. See Ex parte Bowman,
533 S.W.3d 337, 350-51 (Tex. Crim. App. 2017)
(rejecting trial court’s finding that defense counsel
failed to obtain arresting officer’s overtime pay records
before trial where counsel testified that he did not
remember).
“Trial judges, unlike their appellate court
counterparts, are uniquely situated to ‘observe
firsthand the demeanor and appearance of a witness.’”
Wiede v. State, 214 S.W.3d 17, 24 (Tex. Crim. App.
2007). “Consequently, a trial judge ‘is the sole trier of
fact and judge of the credibility of the witnesses and
the weight to be given to their testimony ….’” Id. at 2425. “Just as a jury may ‘believe all, some, or none of the
testimony,’ so may a trial judge believe all, some, or
none” of it. Charles v. State, 146 S.W.3d 204, 213 (Tex.
Crim. App. 2004). An appellate court typically must
defer to trial court findings that are supported by the
record, especially where they are based on credibility
and demeanor. See State v. Guerrero, 400 S.W.3d 576,
583 (Tex. Crim. App. 2013).
This Court has recognized that the legislative
framework of the habeas statute “contemplates that
the habeas judge is ‘Johnny-on-the-Spot.’” Ex parte
Simpson, 136 S.W.3d 660, 668 (Tex. Crim. App. 2004).

Resp’t App. D, Page 7
The trial judge is “… the factfinder who resolves
disputed factual issues, … applies the law to the facts,
enters specific findings of fact and conclusions of law,
and may make a specific recommendation to grant or
deny relief. This Court then has the statutory duty to
review the trial court’s factual findings and legal
conclusions to ensure that they are supported by the
record and are in accordance with the law. We are not
the convicting trial court, and we are not the original
factfinders.” Id. at 668-69.
This Court can reject a trial court’s finding that
is clearly erroneous. However, the Supreme Court has
cautioned, “Where there are two permissible views of
the evidence, the factfinder’s choice between them
cannot be clearly erroneous.” Anderson v. Bessemer
City, 470 U.S. 564, 574 (1985). This Court’s rejection
of some of the trial court’s key fact findings is clearly
erroneous and undermines its ultimate holding. Judge
Keasler said it best: “Dealing with the fact-bound
intricacies of every case as it comes to us may be a
‘tedious, hair-splitting’ endeavor; it may occasionally
produce ‘bottom line’ outcomes that we find
unpalatable. But it is our duty as judges to earnestly
grapple with the facts as settled in the courts below—
and, having done so, to let the chips fall where they
may.” State v. Garcia, 569 S.W.3d 142, 159 (Tex. Crim.
App. 2018). The Court did not adhere to this principle
in applicant’s case.

Resp’t App. D, Page 8
3.

The Court Misconstrued Applicant’s
Arguments
Regarding
Marvin
Paxton.

The jury heard testimony that Marvin Paxton
pled guilty to two aggravated robbery charges with a
cap of 45 years and that Shipley “possibly” would bring
his cooperation to the attention of his prosecutor and
the sentencing judge. The jury did not know that she
already had decided to inform his prosecutor that he
cooperated and to recommend substantial leniency;
indeed, the week after applicant’s trial, she arranged
for him to be sentenced to seven years in prison (which
made him immediately eligible for parole).
The Court erroneously asserted, “Applicant
maintained at habeas that the seven-year deal was
made before Paxton testified at Applicant’s trial.” Slip
Op. at 17. Applicant did not suggest that Shipley
agreed to seven years before Paxton testified; rather,
he proposed in Finding 107 that the trial court find as
follows:
The
State
suppressed
favorable
impeachment
evidence
that
Shipley
intended to arrange for Paxton to receive
reduced sentences in exchange for his
testimony, elicited his false testimony that
she never promised him anything, and
failed to correct his false testimony that it
was only “possible” that his cooperation
would be brought to the attention of the
prosecutor and the court at sentencing.

Resp’t App. D, Page 9
Moreover, Shipley argued during summation that
Paxton was credible and, although Bankston may have
engaged in this “wink and trust me stuff” when he was
a prosecutor, she did not know what he was talking
about and does not operate that way (21 R.R. 75-78).
She lied to the jury, as this is exactly how she operated
in applicant’s case.
The Court concluded, “Paxton’s potential bias
was fully revealed by his testimony, and the fact that
his cases were still pending and that he had no deal
more specific than a 45-year cap suggested a greater
incentive to curry favor with the State than otherwise.”
Slip Op. at 18. Although his “potential bias” may have
been revealed, the jury was entitled to know his “actual
bias,” which derived from Shipley’s promise. For
obvious reasons, Shipley did not want the jury to know
that the State bought his testimony.
The trial court found that Shipley failed to
disclose to the defense that she intended to inform the
prosecutor and the sentencing judge of Paxton’s
cooperation in the belief that she did not have to
disclose that she intended to reduce his sentence after
he testified (Findings 48, 49). This Court avoided
addressing applicant’s arguments regarding Paxton by
erroneously asserting that he maintained, but failed to
prove, that “the seven-year deal” was made before
Paxton testified.

Resp’t App. D, Page 10
4.

The Court Erroneously Substituted
Its Judgment For The Trial Court’s
With Regard To Delores Lee Gable.

The Court correctly observed that the trial court
implicitly found that Delores Lee Gable testified falsely
that she heard applicant confess the murder to Brian.
Slip Op. at 20-21. The trial court saw Gable testify at
the trial and the habeas hearing. He, rather than this
Court, is the “Johnny-on-the-Spot” factfinder who must
determine her credibility. He found that she lied
throughout her testimony.
This Court simply substituted its judgment for
the trial court’s with regard to Gable’s credibility. For
example, it concluded that applicant failed to prove
that Gable did not live in his neighborhood on the night
of the murder. Slip Op. at 23-24. This is significant
because, if she and Brian did not live in his
neighborhood, she was not in a position to hear him
confess the murder to Brian that night. Her mother
testified at the habeas hearing that Gable lived with
her—although Gable did not stay at home every night.
If her mother’s testimony did not prove that Gable lied
when she testified that she lived with Brian in the
same neighborhood as applicant, what would? More
importantly, the trial court believed that Gable lied,
and this Court cannot properly second-guess that
credibility determination.
Another glaring example of this Court’s
substituting its judgment for the trial court’s concerns
the cut lip. Gable testified that she noticed a fresh cut

Resp’t App. D, Page 11
on applicant’s lip on the night of the murder that she
had never before seen. 4 She insisted that the cut was
in the same location as the scar that was visible on his
lip at trial. Applicant proved beyond dispute that the
cut that resulted in the scar occurred two years after
the murder and required plastic surgery to repair. The
trial court found that Gable lied about applicant
having a cut on his lip that night (Conclusion 18). This
Court concluded that the medical records establishing
that applicant “suffered a serious cutting wound to his
lip in 1992 that required plastic surgery … did not
prove that he did not suffer a superficial cut in 1990.”
Slip Op. at 26. The trial court believed that Gable lied
about the cut lip; there is evidence to support that
finding; and this Court must defer to it.
C.

The Court
Analysis.

Erred

In

Its

Materiality

The Court concluded that Adam Osani’s false
testimony that he did not receive a benefit in exchange
for his cooperation was immaterial because the jury
knew about his plea bargain, he no longer needed to
please the State, and Paxton corroborated his
testimony. Slip Op. at 30-31. The jury did not know
that Osani received a plea bargain for time-served on
a misdemeanor as consideration for his grand jury
testimony against applicant; that Shipley elicited his
4
Gable’s testimony supported the inference that
applicant’s lip was cut during a violent struggle with the
complainant.

Resp’t App. D, Page 12
false testimony to the contrary; and that she failed to
correct his false testimony that the plea bargain had
nothing to do with his cooperation. Had the jury known
that Osani lied about the benefit he received from the
State, it easily could have disbelieved his testimony
that he heard applicant confess and also believed that
Paxton would receive a similar benefit.
The Court found that Gable’s false testimony
that Shipley did not promise her a parole letter was
immaterial because the jury knew that Gable wrote a
letter to prosecutor Mike Elliott indicating that she
was seeking a benefit and admitted on crossexamination that she heard that the prosecutor could
help her obtain parole, and Linda Christian testified
that Gable told her that she expected a parole benefit.
Slip Op. at 29-30. The jury did not know that Shipley
agreed to write a letter informing the parole board of
Gable’s cooperation in exchange for her testimony and
that Gable testified falsely that she would not receive
any consideration and never requested help making
parole. Had the jury known that Gable lied about the
benefit that she sought and expected to receive from
the State, it easily could have disbelieved her
testimony that she heard applicant confess.
The Court concluded that the false testimony
was immaterial because the jury would have convicted
applicant even had it known that Osani and Gable lied
about the benefits they received or expected to receive,
as DNA evidence connected him to the charged murder
and an extraneous murder; it was unlikely that he

Resp’t App. D, Page 13
innocently had sex with both women5—whom he knew
but denied knowing 6—shortly before they were
murdered four years apart; and “the State’s case was
fairly strong.” Slip Op. at 33.
The Court disregarded the emphasis that the
prosecutors placed on the testimony of Gable, Osani,
and Paxton during summation. They argued that
Gable’s testimony was credible because she knew
details about applicant’s family and had information
that a stranger would not know; and that applicant
confessed both murders to Paxton and Osani (21 R.R.
18-19, 33-35, 74, 76-78). The Court also disregarded
the testimony of the other prosecutor, Jeff Strange,
that Gable, Osani, and Paxton were critical witnesses
(3 H.R.R. 100-01, 193-94); that there were problems
with Gable’s testimony, as she “came out of nowhere,”
“needed to be vetted better,” and seemed “a little bit too
good to be true” (4 H. R.R. 79-80); and that the State
dismissed the Harris County case because the evidence
was not strong enough to convict applicant and because
Osani and Paxton were “bad witnesses” (4 H.R.R. 48-

The Court failed to mention that each woman subjected
herself to an undue risk of harm by virtue of her chosen profession
and could have been murdered by any of her sexual partners or by
a random intruder.
5

6 The Court failed to mention that applicant explained to
the police that he did not remember Kim Wildman’s name 16
years after the murder and that he initially did not recognize
Edwina Barnum’s name because he knew her as “Nina” (19 R.R.
73-77).

Resp’t App. D, Page 14
49).
Finally, the Court concluded that the false
testimony was immaterial because it “did not relate to
or refute the witnesses’ substantive testimony.” Slip
Op. at 33. This is a dubious proposition. The Court
improperly dissected the credibility determination by
requiring that the false testimony, to be material, must
relate directly to applicant’s alleged confession rather
than to the witnesses’ motive to testify that he
confessed. The Court did not cite any caselaw holding
that false testimony is material only if it directly
impeaches the incriminating aspect of the witness’s
testimony. It also disregarded the cherished legal
maximum, “Falsus in uno, falsus in omnibus” (“False
in one thing, false in everything”), which lawyers have
relied on for centuries to argue that a witness who lies
about one matter is not credible on any matter. If the
State’s knowing use of false testimony that these
convicts were not promised benefits for their testimony
is not material, in and of itself, the Court overruled sub
silentio well-settled precedent. 7

Following the Court’s rationale, the precedential value of several
suppression of evidence and false testimony cases is in doubt. See
Davis v. State, 831 S.W.2d 426, 438-39 (Tex. App. —Austin 1992,
pet. ref’d) (prosecutor threatened witness with perjury charge,
causing him to change his testimony, and then created false
impression that he recanted on his own); Yates v. State, 171
S.W.3d 215, 221 (Tex. App.—Houston [1st Dist.] 2005, pet. ref’d)
(psychiatrist falsely testified that “Law and Order” episode with
7

Resp’t App. D, Page 15
The Court should consider why Shipley would
call convicts to testify to applicant’s alleged confessions
and suppress the benefits that they received or would
receive if she believed that the jury would convict him
based on the DNA evidence. A witness’ motive to testify
is, by definition, relevant to the credibility of the
subject matter of his testimony—whether it be an
identification or a confession. The Court effectively
gives the State carte blanche to promise a witness a
benefit and elicit his false testimony denying any such
promise without suffering adverse consequences. If the
Court upholds a conviction obtained by a prosecutor
who engaged in criminal conduct at trial, the criminal
justice system in Texas truly is broken.
CONCLUSION
This case threatens the integrity of the criminal
justice system. Although the State knowingly
suppressed favorable impeachment evidence and
elicited and failed to correct false testimony, the Court
held that it was not material because the jury would
have convicted applicant even had it known that the
convicts lied under oath in denying selfish motives to
plot of mother drowning her children, claiming postpartum
depression, and being found not guilty by reason of insanity aired
before defendant killed her children); Ex parte Ghahremani, 332
S.W.3d 470, 478-81 (Tex. Crim. App. 2011) (prosecution
suppressed evidence that minor complainant had sexual
relationship with adult drug dealer that led her parents to send
her away for psychiatric treatment and created false impression
that defendant was responsible for her problems).

Resp’t App. D, Page 16
testify that he confessed to them. Upholding this
conviction will encourage prosecutors to elicit and fail
to correct false testimony, and this issue will arise time
and again. The Court should grant rehearing and make
clear—unanimously, unequivocally, and forcefully—
that a conviction obtained by false testimony lacks
honor and has no value.
Respectfully submitted,
/s/ Randy Schaffer
Randy Schaffer, P.C. State Bar No. 17724500
1021 Main St., Suite 1440
Houston, Texas 77002
(713) 951-9555
(713) 951-9854 (facsimile)
noguilt@swbell.net
Attorney for Applicant
EDWARD GEORGE MCGREGOR
CERTIFICATE OF SERVICE
I served a copy of this document on the
prosecution by efiling on June 25, 2019.
/s/ Randy Schaffer
Randy Schaffer

Resp’t App. D, Page 17
CERTIFICATE OF COMPLIANCE
The word count of the countable portions of this
computer-generated document specified by Rule of
Appellate Procedure 9.4(i), as shown by the
representation provided by the word-processing
program that was used to create the document, is
3,474. This document complies with the typeface
requirements of Rule 9.4(e), as it is printed in a
conventional 14-point typeface with footnotes in 12point typeface.
/s/ Randy Schaffer
Randy Schaffer

